                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: A04030009
                                                                                   11            Page 1 of 1



          We received a number of allegations1 about inappropriate management practices and abuse of
          managerial authorities. Among these allegations were:

               1)   Senior NSF Officials failed to tender required resignations
               2)   Illegal Selection process for Senior NSF ~ a c a n c g
               3)   Senior NSF Official submitted a falsified application3
               4)   Harassment and Discrimination Against Real or Perceived Disability:
               5)   Inappropriate Hiring Practices.
               6)   Hidden Hiring Practices
               7)   Illegal Practice of Failing to Hire Qualified IPAs for Permanent Positions

          We reviewed personnel files for allegations 1,2, and 3 and were unable to find any support for
          the allegations.

          We determined that allegation 4 was within the jurisdiction of the Office of Equal Opportunity.
          We conveyed the information to that office, and the complainant was actively involved in        ,
          discussion with that office-duringthis case. Within this allegation, the complainant raised the
          suspicion that the complainant's supervisors were inappropriately accessing the complainant's e-
          mail account. With the assistance of the Division of Information Services, we determined that
          the complainant's suspicions were unfounded.

          We could find no evidence to support allegations 5, and 6. .

          Allegation 7 describes issues to those being investigated in two preliminary files.4 The
          information relevant to those files has been transferred into them.

          This case is therefore closed.




           3
           4




II                                                                                                             I


 NSF OIG Form 2 (1 1/02)
